<html>
<title> - U.S. LESSONS LEARNED IN AFGHANISTAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                               

 
                  U.S. LESSONS LEARNED IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            January 15, 2020

                               __________

                           Serial No. 116-91

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                            ______
                          

               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-915 PDF             WASHINGTON : 2020
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                      
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Sopko, John, Special Inspector General For Afghanistan 
  Reconstruction.................................................     5

                                APPENDIX

Hearing Notice...................................................    88
Hearing Minutes..................................................    89
Hearing Attendance...............................................    90

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Castro..........................................    91
Responses to questions submitted for the record from 
  Representative Phillips........................................    98
Responses to questions submitted for the record from 
  Representative Omar............................................   102


                  U.S. LESSONS LEARNED IN AFGHANISTAN

                      Wednesday, January 15, 2020

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Mr. Sherman [presiding]. The committee will come to order. 
The chairman's staff has asked me to sit in for a bit. Without 
objection, all members will have 5 days to submit statements, 
extraneous materials, and questions for the record, subject to 
length limitations in the rules.
    Pursuant to notice, we are here today to examine the 
lessons from America's war effort in Afghanistan.
    Inspector General Sopko, welcome to the Foreign Affairs 
Committee. I look forward to learning the lessons of 
Afghanistan, but also getting some input as to what we should 
do in the future. Our casualties in Afghanistan over the last 6 
years have averaged roughly ten. We mourn those deaths; we take 
them seriously. But compared to the other conflicts we are 
engaged in, compared to the training deaths we suffer in our 
military, we cannot have the exhaustion of 10 years ago blind 
us to what is the operation now and what is its cost.
    I know the chairman has an opening statement, but I will 
first recognize the ranking member, then I will recognize our 
witness for his opening statement, and hopefully by then we 
will hear the chairman's opening statement.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, pro tem.
    The United States has been in Afghanistan for almost 19 
years. It is the longest war in the history of the United 
States. We sacrifice much on the battlefield, but we have also 
achieved a great deal. We decimated al-Qaida and greatly 
weakened their global network. As a result, Afghanistan has not 
been the staging ground for another successful attack against 
our homeland.
    After the 9/11 terror attacks, it was clear that our 
approach to foreign threats and intelligence efforts needed to 
change. We could no longer sit back and wait while our enemies 
plotted attacks thousands of miles away. We needed to go on the 
offense, and we did. Our presence in the region allowed us to 
capture Khalid Sheikh Mohammed, the mastermind of 9/11, kill 
Osama bin Laden, and, more recently, remove his son Hamza from 
the battlefield.
    I visited Ambassador Crocker there many times and saw 
firsthand the challenges we faced and the opportunities we had 
to succeed. We have led the charge on other important issues as 
well beyond those on the battlefield. They include supporting 
democracy and women's rights, countering the drug trade, 
developing the private sector, promoting economic growth, 
fighting corruption, stabilizing former Taliban-controlled 
districts, among others, and this type of work does not always 
make the news, but it is vital to our future and our security.
    But unfortunately, there have been many costly missteps. We 
know about these missteps because of the important work 
performed by the Special Inspector General for Afghanistan 
Reconstruction. Since 2001, the United States has spent an 
estimated $132 billion on development assistance. One hundred 
and thirty-two billion. SIGAR has found that much of this money 
was wasted, stolen, or failed to address the problems it was 
meant to fix.
    This is clearly not the best use of American tax dollars. 
For example, we have spent nine billion on counternarcotics 
programs, yet today Afghanistan is the largest producer of 
opium, which finances our enemies. How is it possible that 
after two decades, billions of dollars spent, and thousands of 
lives lost, we still cannot slow drug production? Our efforts 
in counternarcotics have clearly failed.
    We have also learned that our strategy to build an Afghan 
army and police force has not made the security situation any 
better. A lack of coordination, the misuse of funds, and 
insufficient training for Afghans has failed to reduce violence 
across the country. This is completely unacceptable. And the 
publication of the Afghanistan Papers in the Washington Post 
last month serves as a sober reminder of our past mistakes and 
underscores the importance of the Trump Administration's 
efforts to end this war.
    The American people have been very patient with our 
involvement. We have sacrificed greatly. In fact, two American 
soldiers lost their lives in an attack this weekend. We owe it 
to them and to others who have served to finally get this 
right. We need to step back and learn from the mistakes we have 
made. SIGAR's Lessons Learned Program initiated in 2014 offers 
key insights into the complex challenges we face. These 
evaluations provide opportunities for Congress and the 
executive branch to prevent the same mistakes from happening 
again in Afghanistan or in other operations around the world.
    So I would like to thank Mr. Sopko for his work on this 
very important report and for appearing here today before this 
committee. And with that, Mr. Chairman, I yield back.
    Mr. Sherman. Thank you.
    We will now hear from John Sopko, the Special Inspector 
General for Afghanistan Reconstruction, for 5 minutes.

    STATEMENT OF JOHN SOPKO, SPECIAL INSPECTOR GENERAL FOR 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Mr. Chairman and Ranking 
Member McCaul and other members of the committee.
    Congress created SIGAR in 2008 to combat waste, fraud, and 
abuse in the U.S. reconstruction efforts in Afghanistan. So 
far, we have published over 600 audits, inspections, and other 
reports that have saved the American taxpayer over three 
billion dollars, while convicting over 130 individuals for 
misconduct related to that reconstruction effort.
    Although this is the twenty-second time I have presented 
testimony to Congress since my appointment, today is the first 
time I have been asked to address SIGAR's rather unique Lessons 
Learned Program and what we have learned from it. I thank you 
for that opportunity. In light of the recent attention our 
reports have gotten, I am particularly pleased to have the 
opportunity to clear up any misconceptions about what that 
program does or does not do.
    As with everything produced by SIGAR, this Lessons Learned 
Program's mandate is limited just to reconstruction, not the 
warfighting. We do not assess U.S. diplomatic and military 
strategies nor our warfighting capabilities. Likewise, we are 
not producing an oral history of our involvement in Afghanistan 
nor opining on whether we should or should not be there. 
Rather, we are the only U.S. Government agency focused on 
conducting research and analysis which meets strict 
professional standards aimed at providing an independent and 
objective examination of U.S. reconstruction efforts there and 
to make practical recommendations to you, the Congress, and 
executive branch agencies for improving our efforts there and 
elsewhere.
    I would like to mention six overarching lessons that you 
can draw from these thousands of pages of reports we have 
issued. First, that successful reconstruction is incompatible 
with continuing insecurity. Second, unchecked corruption in 
Afghanistan has undermined our goals there and, unfortunately, 
we helped foster that corruption.
    Third, after the Taliban's initial defeat there was no 
clear reconstruction strategy and no single military service, 
agency, or country in charge of reconstruction efforts in 
Afghanistan. Fourth, politically driven timelines undermine our 
reconstruction efforts. Fifth, the constant turnover of U.S. 
personnel, or what we have euphemistically called the ``annual 
lobotomy,'' negatively impacted all of our reconstruction 
efforts there. And, sixth, to be effective, reconstruction 
efforts must be based on a better understanding of the 
historical, social, legal, and political traditions of the host 
nation.
    In addition to these key lessons, your staff has asked us 
to give you certain recommendations that you can focus on now, 
and here are six: First, in light of the ongoing peace 
negotiations Congress should ensure that the current 
administration has an actionable plan for what happens the day 
after peace is declared. Second, to ensure that Congress is 
made aware of problems in a timely manner, it should require 
agencies to provide regular reports to Congress disclosing 
risks to major reconstruction projects and programs as they 
occur. This would be analogous to the requirement we impose 
upon publicly traded corporations for the SEC.
    Third, Congress should condition future on-budget 
assistance on a rigorous assessment of the Afghan ministries 
and international trust funds to ensure that they have strong 
accountability measures in place. Fourth, oversight is still 
mission-critical in Afghanistan. Congress must require that 
this administration continues to ensure adequate oversight, 
monitoring, and evaluation capabilities continue.
    Fifth, Congress should require U.S. Government agencies to 
rack and stack their programs and projects on at least an 
annual basis to identify their best and worst performing 
programs. And sixth, Congress should require State, DOD, and 
USAID to submit the anticorruption strategy for reconstruction 
efforts that was mandated to be filed by June 2018 and still 
has not been filed that was mandated by the National Defense 
Authorization Act.
    So in conclusion, our work at SIGAR is far from done. For 
all the lives and treasure the United States and its coalition 
partners have expended in Afghanistan, the very least we can do 
is learn from our successes and failures there to improve 
future operations. I thank you very much for the opportunity to 
appear today and I look forward to your questions.
    [The prepared statement of Mr. Sopko follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Engel. Good morning. Our nation has been at war in 
Afghanistan for more than 18 years. Eighteen years. And let 
that sink in. More than 2,000 American lives lost and thousands 
more wounded, more than 60 thousand Afghan deaths, and more 
than $900 billion spent on a war that has dragged on for almost 
two decades, and this does not include what we will spend to 
take care of our veterans in years to come. And where are we 
after all that time? We are in a military stalemate.
    In 2001, the United States invaded Afghanistan with a clear 
objective: defeat al-Qaeda and its Taliban hosts and prevent a 
repeat of September 11th. By December of that year, American 
and coalition partners defeated the Taliban government. Many of 
its senior leaders were dead, others fled into hiding. The 
following year, in 2002, President George W. Bush said, and I 
quote: The history of military conflict in Afghanistan has been 
one of initial success followed by long years of floundering 
and ultimate failure. We are not going to repeat that mistake. 
Unquote.
    And yet here we are today, 18 years later, having made 
precisely that mistake. So what happened? There is a lot to 
unpack when we look at what went wrong, but some things are 
clear. We got distracted by the war in Iraq under an 
administration whose priority was defeating Saddam Hussein, not 
an end game in Afghanistan. We entered into a questionable 
alliance with Pakistan which continued to arm and support the 
Taliban, providing the group safe haven and allowing it to 
strengthen its hand in Afghanistan. We changed missions, 
changed priorities, and lost sight of what was once considered 
``the just war''.
    So our role in Afghanistan constantly evolved as we plodded 
along year after year until what now feels like a never-ending 
war. In 2008, Congress established a Special Inspector General 
for Afghanistan Reconstruction, what we call SIGAR, to conduct 
oversight of the American war effort in Afghanistan. And in 
2014, we called on SIGAR to do something that had not been 
done, conduct deep-dive, original research into the war to look 
at its successes, its failures, and lessons learned. So today, 
we focus on those lessons learned.
    This past December, the Washington Post published a review 
of hundreds of interviews and documents SIGAR collected for the 
Lessons Learned Program after obtaining them through the 
Freedom of Information Act. These documents and the Post's 
excellent reporting help fill in some significant gaps in our 
understanding of the U.S. war in Afghanistan. They show a 
years-long campaign of misrepresentation by our military 
officials.
    Year after year we heard, ``we are making progress.'' Year 
after year we were ``turning a corner.'' Three successive 
administrations of both parties promised that we would avoid 
falling into a trap of nation building in Afghanistan. And 
while presidents and military officials were painting a rosy 
picture, the reality on the ground was a consistently deepening 
quagmire with no end in sight. It is a damning record. It 
underscores the lack of honest public conversation between the 
American people and their leaders about what we are doing in 
Afghanistan and why we are doing it.
    Yet even in the light of this new information, the Trump 
Administration is not righting the ship on our Afghanistan 
policy. SIGAR's Lessons Learned reports have confirmed the 
longstanding view that there is no military solution to the 
conflict in Afghanistan. Nevertheless, the Trump 
Administration, in 2017, announced it would send more troops to 
Afghanistan and waited 18 months before naming a special envoy 
to focus on Afghanistan reconciliation. That is a heck of a 
long time when our troops are in the field coming under fire.
    Just this past September, this committee held a hearing 
after President Trump derailed peace talks with the Taliban 
over Twitter, as we have come to expect from the President. The 
announcement came after over a year of the administration 
blocking key information from Congress and the American people 
about the status of the war. Secretary Pompeo has, still to 
this day, refused to let the top State Department negotiator in 
Afghanistan, Zalmay Khalilzad, testify in an open hearing about 
the status of peace talks despite a subpoena from this 
committee.
    There is so much more for us to understand about how we 
wound up here and how we move forward in Afghanistan so, 
Inspector General Sopko, I am pleased you are here to discuss 
your findings and share your perspectives. I will recognize you 
to make an opening statement.
    Oh, that you already gave; okay, pending which I will call 
my friend, Mr. McCaul of Texas, for any further statements. No, 
Okay.
    So our witness this morning is Inspector, Special Inspector 
General for Afghanistan Reconstruction John Sopko. Inspector 
General Sopko, I now recognize you for 5 minutes. And you have 
done that. Okay.
    So now it is time for questions.
    Okay. Despite SIGAR's very well documented and detailed 
account that the U.S. intervention in Afghanistan was failing, 
the Trump Administration made no real change in strategy. The 
President's 2017 South Asia strategy suggested the war would be 
won on the battlefield or that it would use military power to 
force the Taliban to the negotiating table under favorable 
terms. He even dropped the mother of all bombs to shock and awe 
the Afghans into bending to our will and it did not work. So my 
first question is, did you make your reports available to the 
White House and other parts of the Trump Administration, and 
when presented with evidence that this war would not be won 
militarily, why do you think the President sent even more 
troops to Afghanistan?
    Mr. Sopko. Mr. Chairman, thank you for that question. It is 
not really my jurisdiction to evaluate strategic-level policy, 
so I cannot really comment directly on why the President did or 
did not do. We did brief senior staff. I spent over 2 hours 
briefing with my staff the chairman of the Joint Chiefs of 
Staff on our Lessons Learned reports. We briefed senior 
officials at the State Department as well as those at the NSC 
and elsewhere.
    So we advise them on what has worked or what has not worked 
on military policy and our report has highlighted a number of 
things that have worked. I leave it up to them to make the 
decision as to how to proceed on that, so I do not think I can 
really comment further on it.
    Mr. Engel. OK. In April 2002, President George W. Bush 
said, and I quote: The history of military conflict in 
Afghanistan has been one of initial success, followed by long 
years of floundering and ultimate failure. We are not going to 
repeat that mistake. Unquote.
    Looking back at this statement, President Bush was right, 
except his administration and subsequent administrations did 
repeat that mistake. After the initial military victory over 
the Taliban, there have been long years of floundering and 
failure. There are many, including those your office 
interviewed, that thought we lost focus in Afghanistan because 
of the Bush Administration's focus on Iraq.
    So let me ask you, do you agree with that and to what would 
you attribute this failure?
    Mr. Sopko. I am sorry, Mr. Chairman. I did not quite hear 
your full question. Do I agree with what? That President Bush's 
statement or?
    Mr. Engel. Well, President Bush said, and this is a quote: 
The history of military conflict in Afghanistan has been one of 
initial success followed by long years of floundering and 
ultimate failure. We are not going to repeat that mistake. That 
is the end of the quote.
    And I am saying, looking back at this statement, the 
President was right, President Bush, except his administration 
and subsequent administrations did repeat that mistake, 
subsequent administrations in both parties. After the initial 
military victory over the Taliban, there have been long years 
of floundering and failure and there are many, including those 
that your office interviewed, that thought we lost focus in 
Afghanistan because of the Bush Administration's focus on Iraq.
    So I am asking you if you agree with any of those and to 
what would you attribute this failure?
    Mr. Sopko. We have reported in our Lessons Learned programs 
that we did lose focus on Afghanistan and we allowed the 
Taliban to basically come back and there was a resurgence of 
the Taliban. We have noted that that was obviously a mistake. 
We have also noted as a result there was a surge under the 
Obama Administration of troops as well as a surge on 
reconstruction or development aid. So that was in response to 
that not focusing on the Afghanistan issue, sir.
    Mr. Engel. Let me ask you a final question. I understand 
from your letter to the editor of the Washington Post you feel 
that the newspaper mischaracterized your effort, but how would 
you respond to some of the observations of the interviewees? 
For example, this quote from Bob Crowley, an Army colonel who 
served as a senior counterinsurgency advisor to U.S. military 
commanders in 2013 and 2014, and this is a quote from Mr. 
Crowley.
    ``Every data point was altered to present the best picture 
possible. Surveys, for instance, were totally unreliable, but 
reinforced that everything we were doing was right and we 
became a self-licking ice cream cone.'' Could you comment on 
that, please?
    Mr. Sopko. I am happy to do that. That quote is similar to 
what we have been reporting almost since I have become the 
Inspector General. I noticed and it is not just in the military 
side, it is also in the development side. And again, I do not 
focus on the warfighting. I am the Inspector General for 
Reconstruction, not for how well of a job we did on the 
warfighting, but on the training of the military we look at.
    But there was a disconnect almost from my first trip over 
there between what AID, State, and DOD were saying what was 
going on and what I saw and what my staff were seeing on the 
ground. That is one of the reasons why we performed or came 
about to do the Lessons Learned reports. The problem is there 
is a disincentive, really, to tell the truth. There is an 
incentive and it is for many reasons, and we can go on.
    I know my time is up, sir, but there are many reasons we 
can discuss. We have created an incentive to almost require or 
for people to lie. I do not want to sound like something from 
Burl Ives in Cat on a Hot Tin Roof, but there is an odor of 
mendacity throughout the Afghanistan issue.
    And I know Congressman Connolly has heard me talk about 
this years ago, mendacity and hubris. You create from the 
bottom up an incentive because of short timeframes, you are 
there for 6 months, 9 months, or a year, to show success. That 
gets reported up the chain and before you know it, the 
President is talking about a success that does not exist. And I 
think that is a good issue to look at. Not whether there was 
lying, but why, and what does that tell us about the way we do 
business, whether it is in Afghanistan or maybe here in the 
United States.
    Mr. Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I remember visiting with General Wald who led our forces in 
Tora Bora. He said if I just had a few more men, we could have 
taken them out. And Ioften think about that because had we 
taken out bin Laden in the early days, who knows, it would have 
changed history. We would not have been talking about this two 
decades later, $130 billion later. Who knows if we would have 
even gone into Iraq had we taken out the perpetrator of 9/11.
    And I have always thought that was our No. 1 mission in 
country was to stop terror threats from attacking the homeland, 
and maybe we got a little mission--maybe we got into things 
that perhaps we should not have. I do think the days of 
occupying nations and reconstruction with the hope that 
Jeffersonian democracy is going to plant its seeds and roots in 
retrospect, it may have been a little naive. It is a very 
primitive country, Afghanistan, and I have been there many 
times.
    So to my question, as I would advise the President on 
Syria, a residual force to protect the homeland, I do not think 
we can afford to stay in these countries forever and occupy 
them forever. I think the most important thing we can do though 
is to have a residual force of some sort to take out terrorist 
threats to the homeland and a counterterrorism mission, and 
maybe we lost sight of what our mission really was in the first 
place.
    And so, I guess, and I know you are not here to report on 
policy, per se, but I would like your comments on that. And to 
that end, what programs have been most effective at 
counterterrorism in that mission?
    Mr. Sopko. Congressman, I think that is an excellent 
question. And I can bring you up to the line to policy and I 
leave the policy to you. You have to remember, going back to 
that time the initial reason we went in there were to find the 
people who killed our people. Find them, punish them. But the 
second point was to make certain that country, Afghanistan, was 
not a place where terrorists could breed and attack us again.
    So we were trying to create or help create a government 
that could manage their country; up to then they could not. So 
that is where, we call it nation building. I do not know. That 
is a word that I think is abused more than actually defined. It 
is always defined in the negative. We do not do nation 
building, somebody else does. But we were trying to make 
certain that an Afghan Government could keep those terrorists 
out, so that is why we did build roads, we did do training. We 
are doing train, advise, and assist right now. So those were 
the two points of that goal, of our goal in going into 
Afghanistan.
    Taking it to what has worked and what has not worked, we 
identify, and this is one of the things we were briefing Joe 
Dunford and his team on, on this one Lessons Learned report, 
which I think may have helped the President in his decision on 
what to do in Afghanistan where we have consistency in our 
training and we bring people over there for more than 6 months. 
And you see that particularly with the Special Forces training, 
excellent training.
    And if you look at the Afghan military right now, the best 
units that are fighting are the Special Forces, that our teams 
are connected with them, they live with them, they work with 
them. The other area where we had great success has been with 
the Afghan Air Force. Again, the U.S. Air Force has done a 
wonderful job particularly with a couple of platforms, the A-
29, I think is the best one, where the Air Force, our mentors, 
worked for 4 years, 4 years they spend working with the Afghan 
Air Force. And that is tremendous; that is one of the best 
programs we have and we were advising the President and his 
team that is what you should do.
    So it goes back to we should have actually done a more of a 
racking and stacking of what worked and did not. The Afghan 
military, and particularly the Afghan police, has been a 
hopeless nightmare and a disaster and part of it is because we 
rotate units through who are not trained to do the work and 
they are gone in six to 9 months.
    I do not blame the military, but you cannot bring in a 
Black Hawk pilot to train an Afghan policeman on how to do 
police work. And that is what we were doing, we are still 
doing.
    Mr. McCaul. Well, this has been very insightful and it will 
help us in making our recommendations to the administration. It 
seems to me in conclusion that really training their Special 
Forces, their Afghan National Defense and Security Forces and 
their Air Force with the appropriate people may be the best 
strategy.
    I know the President hopes he can negotiate with the 
Taliban. I am a bit skeptical, sir, that you can never 
negotiate with the Taliban. I know a complete withdrawal would 
involve an overrun by the Taliban, for sure. They would 
probably take the country over and then we would have a real 
mess. So this is very complicated, but something needs to 
change. The status quo is not acceptable here.
    Yes, sir.
    Mr. Sopko. In response to that, Ranking Member, I agree 
totally. But the important thing is you have to be given the 
facts.
    Mr. McCaul. Yes.
    Mr. Sopko. To make that decision. And one of the concerns I 
have raised for almost, again, the seven or eight or 9 years I 
have been doing this--I cannot remember, they kind of merge 
after a while--is that a lot of the facts that you need, you 
are not being given. They are overclassified or they are not 
being collected or they are just ignored.
    So to this day, you do not have unless you go into the 
classified briefing, and you know how difficult it is to use 
that, but you are not told some of the basic facts that you 
need to make your decision of whether you should fund programs 
or not. And I can go through those lists at some time. That is 
a still a problem.
    And when we talk about mendacity, when we talk about lying, 
it is not just by lying about a particular program, it is lying 
by omissions by saying, oh, I cannot tell you about the 
casualties; oh, I cannot tell you about how good the Afghans 
are of its weapons; or I cannot tell you this and that. It 
turns out that everything that is bad news has been classified 
over the last few years.
    Mr. McCaul. Well, we appreciate your hard work on this. 
Thank you, sir.
    Mr. Engel. Thank you.
    Mr. Sherman.
    Mr. Sherman. We cannot deny terrorists a few acres here or 
there, after all, they plotted against us in an apartment 
building in Hamburg, we need to prevent terrorists from getting 
a whole State or a training facility as large as Tora Bora was 
in early 2001. In evaluating our Afghan policy, I think we have 
got to get away from looking at the sunk costs, the exhaustion 
of the last 18 years, and look only at the future and see what 
are the future costs of being involved and what future 
benefits, if any, are available.
    The one lesson I have learned over the last 20 years is we 
are very good at breaking things. We broke the Taliban and 
entered Kabul. We broke Saddam Hussein's army and entered 
Baghdad. We are not very good at fixing things and at nation 
building and so we should restrict our future military 
involvements to those where our case for involvement is so 
strong that we are not morally obligated to go in and fix it. 
The Pottery Barn rule should not apply.
    The worst example of our behavior was Iraq. We invaded even 
a few days after Saddam Hussein said he would allow all the 
international inspections. We found no weapons of mass 
destruction. And then to justify our behavior, we had to 
announce that we were going to turn Iraq into a democracy with 
rule of law. I wonder how well that is working out.
    Mr. Sopko, you have shown us that our Afghan nation 
building was not done well. Foreign Policy--Foreign Affairs 
magazine gives our efforts there a D-minus, but going forward 
we are going to be confronted with similar situations. Let's 
say we had done a B job, go with the Federal Government long 
enough not to expect an A job. We did a B job.
    One view is, we can do nation building at reasonable cost 
if we learn from the lessons of Afghanistan and do it about as 
right as the government can do it. Another lesson is, we cannot 
do nation building. Would a B job from the Federal Government 
had done the job in Afghanistan?
    Mr. Sopko. I used to teach in college. I think if you even 
did a D job--D.
    Mr. Sherman. D.
    Mr. Sopko. It would have been OK in Afghanistan.
    Mr. Sherman. So you are saying if we would had just--if----
    Mr. Sopko. D-minus and it would have worked a lot better.
    Mr. Sherman. So you have given--what we did was an F, F-
minus, something like that?
    Mr. Sopko. E. You showed up. You showed up for class. That 
is it.
    All kidding aside----
    Mr. Sherman. So you are saying that we can do nation 
building if we do a good, the kind of good job that the Federal 
Government is capable of doing?
    Mr. Sopko. Absolutely. And what we tried to do is we tried 
to give the Afghans--and I think one of your staff asked us 
about misassumptions that we have identified and there is a 
whole list of them. One was trying to give the Afghans what we 
had when they only wanted a little bit of peace and a little 
bit of justice. And if you look at our report on stabilization, 
we talk about that.
    Mr. Sherman. Got you.
    Mr. Sopko. The whole stabilization program was coming in 
after our military cleared a district to try to bring in a 
government services so that the locals would go back and 
support the central government. Well, they wanted a little bit 
of justice. What did we do? We built courthouses. They were not 
looking for courthouses. They were not looking for something 
that looked like this. They were looking for just simple 
justice. And as much as you hate the Taliban, and I do, and I 
hate their brand of justice, to the average Afghan it is better 
than the justice provided by the National Unity Government.
    And that was one of my trips was the most shocking thing 
where, and I believe, well, Congressman Connolly has left so I 
can repeat the story so no one of you will be bored, but I came 
back as so depressed because I met three, separately, three 
Afghans who I had been working with, smart, young, brave 
Afghans who risk their lives every day, and for some reason we 
all started talking about their families. And their families 
lived in the countryside in Afghanistan and every one of those 
young, smart, bright Afghans told me a story where they 
recommended to their mothers and fathers that if they had a 
justice problem, and all of them did, go to the Taliban. Do not 
go to the local government.
    Mr. Sherman. So instead of creating a government similar to 
what Afghanistan had some time in the last 50 years, we tried 
to create the kind of government we have in the United States.
    Mr. Sopko. We tried to create a little America. We tried to 
create I call it Norway. What they wanted was fair justice. And 
what happened is if you went to the National Unity Government 
justice, first of all, the judges weren't there because they 
were afraid to go there. You had to pay bribes, and it is the 
bribes that determined wherever you got the land or wherever 
the dowry was recognized or whatever.
    But the Taliban came in, it was rough justice and I am not 
advocating Taliban justice. I remember I testified----
    Mr. Sherman. Is there a period of time in Afghan's history 
that you would say the Afghan had the kind of government that 
those villages would have wanted?
    Mr. Sopko. I think it probably would have been before the 
Soviet invasion and it goes back to----
    Mr. Sherman. And before the Communist regime that preceded 
the----
    Mr. Sopko. And the Communist regime and the horror of that.
    Mr. Sherman. I believe my time has expired.
    Mr. Engel. Thank you, yes. Thank you, Mr. Sherman.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. And thank 
you, Mr. Sopko, for your tenacity. Your frustration level must 
be just vexing. I do not know how you do it.
    Ranking Member McCaul just mentioned a moment ago about 
Osama bin Laden. In another part of the world I visited with 
Bashir in Khartoum in Sudan and I was there to talk about 
Darfur, and he was almost mocking. And then when I met with 
Salah Gosh, one of his people, was mocking as they offered us 
Osama bin Laden before he went to Afghanistan and the Clinton 
Administration would not take it.
    So in terms of hindsight being 20/20, if only.
    Let me just ask you a couple questions. You know, 130 
convictions, a thousand investigations, criminal and civil, 600 
audits, inspections, and other reports, maybe you could break 
out for us and maybe even do it more for the record, who were 
those people? Were they Americans? Were they people from 
Afghanistan that were convicted and what were they convicted 
of? Where did they go to jail when they were convicted?
    Second, with regards to some examples, and I think your 
testimony is just amazing, you talk about how in 2014, then 
USAID administrator--and I know him, Dr. Shah. He was a very, 
very honorable man and I wonder if the information even got to 
him that you were trying to provide. But he had said there are 
three million girls and five million boys enrolled in schools 
compared to just 90,000 when the Taliban ruled Afghanistan, and 
you pointed out that that information was gotten from the 
government and it was contradicted by other government people 
and there was no attempt to verify the accuracy. And I think 
that is very troubling.
    You also point out on the rule of law programs, a billion 
dollars, that in 2013 the strategy had no performance measures. 
I think you know that is appalling and maybe you might want to 
touch on that. And finally, you point out in the interviews for 
this Lessons Learned Program, 80 percent of the people 
interviewed wanted their names removed to be anonymous. Again, 
does that fall in--was there retaliation against anyone as far 
as you know?
    And that is a very, very, as you pointed out, (they have) a 
well-founded fear of retribution from political and tribal 
enemies. Maybe you could speak to that. And again, thank you.
    Mr. Sopko. Those are all good questions. Let me start at 
the end. On retaliation, we know of no retaliation but we are 
concerned. One of the concerns I have is that there is a 
lawsuit now pending and the Washington Post wants to get the 
names of all of our people who asked for anonymity. As an IG, I 
cannot work if I cannot offer anonymity and protection to a 
witness or a whistleblower.
    Well, you know what, whistleblowers are a lifeblood as an 
inspector general or any law enforcement agency. I have law 
enforcement credentials. You have to have them. I mean, I find 
it so ironic, this is the same Washington Post, if I recall, 
had an informant that I believe it was for 30 years they kept 
the identity of Deep Throat from the American people, but for 
some reason we have a new Washington Post where they want to 
know our informants.
    These people who spoke to us risked a lot, and you know 
what this town is like. You know what is like if somebody bad 
mouths their old boss or whatever. These people had realistic 
fear and whatever. We do not give them a litmus test of whether 
your fear is reasonable or not. We just ask them if they want 
us to use their name. And so that is so important.
    So--but there is no retaliation that we know of. I mean in 
Afghanistan the difference is that these people would be 
killed. Simple, OK. But I suppose the Washington Post wants 
their names for some reason. Why? They have the information, 
why do they need the name? But I do not want to go there.
    The question, I believe, and I am sorry if I lost----
    Mr. Smith. The rule of law and also the education of 
children and 130 convictions.
    Mr. Sopko. Oh, yes. That is, it is fact versus fantasy. 
This is this problem that we identified early on, this odor of 
mendacity. There was this exaggeration after exaggeration of 
what we accomplished. And there is another example we give 
about the life expectancy, where USAID Administrator Shah, and 
it went all the way up to the President, were saying about how 
we had doubled the life expectancy. And we talked to experts in 
the health field. We talked to experts at the CIA that said it 
was statistically impossible, statistically impossible to 
double the life expectancy of any country over that timeframe.
    But that is--and I am certain some President and some AID 
administrator, I must say the current AID administrator is 
totally different and he sticks to the records and he sticks to 
the facts. I am so proud of----
    Mr. Smith. That would be Mark Green?
    Mr. Sopko. Yes, one of your former colleagues. He is a 
tremendous person to work with. But we find this. But I think 
the problem is, again, we did not send liars and thieves and 
troublemakers to Afghanistan to work for USAID or for the 
Department of Defense or whatever. We sent the bravest, the 
smartest--I do not want to say always the smartest. But we sent 
the best that we had, but we gave them a box of broken tools.
    We gave them--let's say if you were a contracting officer 
you are rated on how much money you put on contract, not if any 
of the contracts work. We rated not on outcomes, but on output. 
We sent over military officers with 9 months or less of duty 
and they had to show success. You know, I have actually been 
briefed at one point about these shark tooth of assessments.
    The Afghan--you would be assigned to an Afghan unit. You 
would come in and say, ``The Afghan unit can't walk and chew 
gum at the same time.'' Three months later, ``I am seeing 
success. They are getting better.'' At the time of the end of 
your tour, ``They are doing very good. They are meeting all 
objectives.'' You leave. The next captain comes in, ``These 
people can't chew gum and walk at the same time.''
    Why? It is not because that officer is a liar. That officer 
wants to get promoted. That officer wants to show success over 
his tour of duty. This is the problem we have. Our H.R. system 
is broken. Our procurement system is broken. Our rotation 
system is broken, you know, you go through the whole list. The 
problems you see in Afghanistan are the problems you see of the 
way the government operates here. That is the one thing I can 
say having spent 30 years looking at government operations, 
first, for Senator Sam Nunn, then for John Dingell over here in 
the House.
    Mr. Engel. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you.
    Mr. Sopko, good to see you again. Thanks for all of your 
work and your team's work conducting oversight of our policy, 
our efforts in Afghanistan.
    The publication of the Afghanistan Papers by the Post has 
elevated an important discussion, but it is not the first 
attempt to highlight problems with the U.S. role in 
Afghanistan. Congress established SIGAR to help conduct 
oversight of the war. SIGAR has written seven Lessons Learned 
reports; is that right, Mr. Sopko?
    Mr. Sopko. That is right.
    Mr. Deutch. That touch on many of the issues covering the 
Afghanistan Papers. A major concern is the U.S. was dragged 
into a conflict in a country that it did not fully understand. 
There is more information we should have, Mr. Sopko. I will get 
to that in a second.
    According to the Afghanistan Papers, in 2014 a senior State 
Department official said, ``If I were to write a book, its 
cover would be, America goes to war without knowing why it 
does. We went in reflexively after 9/11 without knowing what we 
were trying to achieve. I would like to write a book about 
having a plan and an end game before we go in.'' And during a 
Lessons Learned interview in 2016, an anonymous USAID official 
said, ``Taliban's presence was a symptom, but we rarely tried 
to understand what the disease was.''
    Richard Boucher, career Foreign Service Officer, who was 
State South Asia from 2006 to 2009, told government 
interviewers in 2015, ``If there was ever a notion of mission 
creep it is Afghanistan. We have to say good enough is good 
enough. That is why we are there 15 years later. We are trying 
to achieve the unachievable instead of achieving the 
achievable.''
    All these quotes help demonstrate how a lack of cohesive 
strategy and clear policy undermined our efforts in 
Afghanistan. We did not fully understand our adversary, our 
strategic objectives, or the environment in which we are 
operating. Despite the amount of assistance that flowed into 
the country since 2001, even the positive gains remain fragile.
    So, Mr. Sopko, if we are to be honest, Congress is culpable 
to many of these problems. Too often we listen to officials 
without adequately questioning their assumptions and 
conclusions. But you are here today and you have told us that 
part of the problem is that we do not have the facts. You said, 
the basic facts that we need are not being given. Can you 
elaborate on that? What are the basic facts that all these 
years later that we have been at this, that you have been at 
this, we are still missing?
    Mr. Sopko. Well, let's start with strategy. There is a 
strategy for Afghanistan; it is classified. Now I have 
clearances. You do not need a clearance to get it; you cannot 
get it. There is a start.
    What is our strategy? There is a strategy for--there is no 
strategy we think for narcotics.
    Mr. Deutch. There is--well, let me just stop you there. So 
when you are referring to the strategy, you are referring to, 
what are you referring to? You are referring to a document?
    Mr. Sopko. Well, usually there are strategic documents.
    Mr. Deutch. Right.
    Mr. Sopko. You have got to have a strategy and then you 
have got to lay out the programs, because without the strategy 
you don't know where your programs should be going. That is the 
problem we have had over 18 years. And you also have to have 
metrics or ways to measure success.
    Mr. Deutch. All right. But when you--I just want to stop 
you for a second. But when you talk about the constant churn of 
new people coming in and starting over, they are all operating 
pursuant to that strategy, no?
    Mr. Sopko. No. They get a job assignment. They just go over 
there to run a program. They do not know what--that is the 
whole problem. They are sent over there without knowing what 
the strategy is and what was the objective of the overall 
strategy in Afghanistan, but the individual program strategy.
    Mr. Deutch. OK. Who is the keeper of that strategy? Where--
--
    Mr. Sopko. Well, usually----
    Mr. Deutch. You make it sound as if there is this document 
that if we all could just see it everything would become clear, 
if we shared it with all the military officials and USAID they 
would understand. Help me understand.
    Mr. Sopko. Well, I did not mean to imply that this is the 
silver bullet or the answer. You are just saying where are the 
problems of not getting the facts.
    Mr. Deutch. Right.
    Mr. Sopko. You start with the strategy and then you look 
at, well, how did the programs meet that strategy? And then you 
look at metrics for success, then you look at the facts. Now 
when I talked about classification, I mean, and I can go 
through the list of what is still classified and I think that 
may help you.
    You know, the way to determine whether we are doing a good 
job on training, advising, and assisting the Afghan Security 
Forces, you would want to know about the Afghan National 
Security Forces operation data. That is classified. The Afghan 
Security Forces' casualties, I mean if they are getting killed 
then obviously our training has not been very helpful.
    You would want to know about the RS Commanders' assessment 
of the Afghan security environment. That is now classified. The 
attrition metrics for the ANA Corps and ANA zone level, that is 
classified. Equipment readiness, that is classified.
    Mr. Deutch. Right. Mr. Sopko, I appreciate it. Let me just 
close with this.
    Mr. Sopko. Yes.
    Mr. Deutch. So in the seven documents that you have 
produced so far and all of the times that you have been up 
here, have we had this conversation before? I am not being 
flip. This notion that if we just had this information for all 
the years that we have been at this, have you been screaming 
from the mountaintops about this? Is there--help me understand.
    Mr. Sopko. I think I have been raising the issue about 
classification going back at least four or 5 years, and 
repeatedly, and I think in every quarterly report we raise it. 
Not the lessons learned, but the quarterly reports.
    Mr. Deutch. Right.
    Mr. Sopko. And I raised it just, what was it, last year. 
The last metrics we had for success were--and General Nicholson 
said these are the metrics you have to focus on, the amount of 
territory the Afghan Government controls and the percentage of 
the population they control. They classified that, then they 
stopped collecting the data, then they said that is no longer 
relevant.
    So you have no metrics. You as Members of Congress have no 
public metrics to rate the billions of dollars we are spending 
in Afghanistan.
    Mr. Deutch. Mr. Chairman, thank you for holding this 
hearing. And for the over 2,400 American lives lost and over 
20,000 wounded, we certainly owe it to every one of them to 
make sure that we are doing everything now to get this right. 
And I appreciate this, thank you.
    Mr. Engel. Thank you, Mr. Deutch.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, Mr. Sopko, for your candor. It seems to me that 
your job here from the perspective of some of my colleagues is 
to make sure you do a good job at bashing or affirming that 
President Trump is pathetic and does not have a strategy and 
this is all his fault. And I actually applaud your efforts to 
kind of stay out of the fray in that regard. I don't think any 
of us are perfect. I think the President does want to get out 
of Afghanistan and it is hard to determine what the facts are. 
The Post's article kind of laid out the fact that we do not 
know the information and you have reaffirmed that.
    Classifications, even in the President's own defense, when 
he wanted to declassify information that would buttress his own 
innocence in claims against him, he cannot seem to get that 
done. This town has a way of sequestering the information most 
important to it and most damning to it and the people in it. 
That having been said, I would like to get to some of the 
information.
    You highlighted challenges regarding coordination of 
reconstruction in Afghanistan and the fact that there is no one 
in charge. There is no culpable, whether it is on the Afghan 
side or whether on the American side or some NGO, et cetera, 
the old adage that if everyone is in charge, no one is in 
charge. Have there been any improvements in this since you have 
continued to decry that over the course of your reporting have 
there been any improvements regarding culpability, regarding 
assignment for responsibility, so to speak, in Afghan 
reconstruction projects?
    Mr. Sopko. If I could have one moment.
    Mr. Perry. Sure.
    Mr. Sopko. Well, it is unanimous. No. No, we have not seen 
any improvements. And again, I don't want to, you know, turn 
this into a comedy routine. The problem is this is a very 
complicated--this is a NATO operation. We have multiple donors. 
We have multiple donors who are just doing reconstruction. Some 
are providing military. It is a problem and I really think it 
is something that Congress needs to focus on, because we will 
do this again and there are going to be multiple people wearing 
multiple hats.
    And we actually have an entire report looking on, I forget 
the title of it is, Divided Responsibility, and that report 
goes into, unfortunately, gory detail of how convoluted the 
process is. And again, this is not meant as a criticism of any 
administration. This is meant as a criticism of the 
complexities of government. This has got over 900 footnotes 
highlighting, and maybe this is the difference between us and 
the Washington Post, you know, we go into a lot of detail on 
this.
    And no, there is a problem and it is not just in the 
military field, although this report focuses on that, but it 
also goes to the reconstruction field. So I think this is a 
worthwhile area for you and Congress to focus on, divided 
responsibilities in Afghanistan and in these post-conflict 
environments.
    Mr. Perry. With the little time that I have, let me just 
carry you a little further on that. It is your studied opinion 
that that should be the purview of Congress to assign those 
responsibilities only in the context that look, I am a Black 
Hawk pilot and I do not want to teach law enforcement and I 
would not be any good at it. But while I am surrounded by a lot 
of really well-intended people that are smart, I am not sure 
Congress is the best answer either.
    And it seems to me that somebody that can act somewhat 
autonomously determine the problem and see the solution set, 
somebody like a Mark Green or anybody in that capacity should 
be able to say, look, here is the project, here is the agencies 
involved, here is where the funding is. You are in charge. Here 
is the report, Tom, knock yourself out. And this is what we 
expect from you and if you cannot get the job done, then in 6 
months we are going to look for a replacement.
    Why do you think it should be Congress? I am concerned 
about that, but I will--I am listening to your answer.
    Mr. Sopko. No, no, no. I think part of the reason is some 
of these authorities and responsibilities are established by 
law, first of all. And what we are dealing with in Afghanistan 
is a whole of government and whole of government's approach and 
a lot of this is going to have to be done statutorily. I am not 
saying that any one committee up here are the best ones to 
decide, but it should be recognized we have a problem.
    And I was going to look at the charting here.
    Mr. Perry. My time has expired, sir, but could you just do 
this. With the chairman's indulgence, could you give us one 
example regarding a statute where you think we could make a 
difference so I can kind of contextualize this?
    Mr. Sopko. I will definitely do it. I asked my staff to do 
it right now and we will get back to you.
    Mr. Perry. All right, thank you.
    Mr. Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you.
    Let's be clear on one thing right off the bat that our 
greatest responsibility to get things right, we are going to be 
talking about billions and billions of dollars, but our 
greatest responsibility to get things right rests with those 
families that lost sons and daughters and loved ones to this 
war and to the people who are living with devastating injuries 
that they suffered in this war that forever will challenge them 
both physically and mentally.
    Now let me zero in on one area of concern that we raised. 
My colleagues and I raised it. I authored with my colleagues a 
piece of legislation ensuring that women are a part of the 
peace process in Afghanistan and that they are engaged in the 
activity of being meaningful partners in creating a lasting 
peace, something I hope we will advance, Mr. Chairman, out of 
this committee shortly.
    But you mentioned in your report that you expect, and in 
your testimony that you expect to issue a report on women's 
empowerment in Afghanistan this year or early next year. And in 
a recently released 2019 High-Risk List, there is a section 
focusing on how despite over a billion dollars spent since 2002 
to advance the status of women, gains by women in Afghanistan 
remain fragile.
    So how would you categorize the current state of meaningful 
engagement for women and what is a clear strategy in your mind 
going forward to deal effectively with these gains that not 
only will help women, but actually I think help the country 
achieve any semblance of a lasting peace going forward?
    Mr. Sopko. Congressman, that is a very good question and I 
am glad you highlighted our High-Risk List, because this report 
talks about the importance of a number of issues and this is 
when I refer to Congress needs to do something about ensuring 
that these risks are dealt with if we want lasting peace.
    I cannot tell you specifically what is the answer. I can 
just tell you that although we have made advancements helping 
women in Afghanistan, life for a woman in Afghanistan is 
horrible. Outside of the cities, major cities, where the 
majority of the Afghan women live, it has not improved much. 
And I have not met an Afghan woman yet who trusts the Taliban. 
So that is something, and I know you are concerned that they 
have a seat at the table or somebody represents them at the 
table so they do not get lost in this shuffle declaring victory 
and leaving. That is my concern.
    Mr. Keating. We have been assured that time and time again 
by the Afghan----
    Mr. Sopko. By the Taliban?
    Mr. Keating. No, by the Afghan leaders, yet you are right. 
There is no place at the table. So, but you categorize it as 
fragile right now, so could you talk to us about right now and 
what we should have done to make it less fragile and what we 
can do going forward?
    Mr. Sopko. You know, I do not have specific answers to 
that. I will get back to you. But I think one of the critical 
things about that issue, and it is a delicate issue because you 
are talking about cultures. But one of those things is we have 
to focus that the problem of women's rights is men. And all of 
our programs have been focusing on giving certificates and 
things to women, who are problem is, and Ms. Ghani, the 
President's wife----
    Mr. Keating. I have spoken with her and had discussions 
with her on this matter.
    Mr. Sopko. I have spoken with her too, in the palace, and 
she says the women's issue is a men's issue, so the program 
should be focused on them. But one of the things is if you are 
going to design a women's program talk to some Afghan women. 
And Ms. Ghani was one of the first people who highlighted the 
problem with the Promote Program, which is one of those 
programs that was oversold as the greatest program on earth for 
women, $250 million, and there was going to be $250 million of 
donations from the European Union and the European allies, and 
I remember meeting with the European allies in Afghanistan and 
none of them had heard about the program.
    But we had already--this is again, this odor of mendacity. 
We had already--OK.
    Mr. Keating. All right, I have 20 seconds left.
    But there is a recurrent theme regardless whether you are 
talking about the judiciary system, the rule of law, whether 
you are talking about the narcotics system or what we are 
talking about with advancing women's place in the society, we 
are not tailoring our programs around the traditions of the 
host country. And I think probably with later testimony that is 
going to be an area you are going to highlight that that is a 
huge oversight on our part.
    I have to yield back. My time is up.
    Mr. Sopko. We need to talk to the Afghans, sir.
    Mr. Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Sopko, thank you for being here. I apologize because I 
feel it is like welcome back to groundhog days again because we 
have heard this over and over again, and you have done a great 
job of highlighting this stuff.
    I remember when Rajiv Shah was here when he was with USAID. 
I think Afghanistan got a billion dollars through USAID and 
they could not account for $300 billion and this has been a 
continual problem. I think what you pointed out was a grand 
plan and I think Congress can do that and Congress should be 
the one that does that and it should be the appropriate 
committees.
    I think the Foreign Affairs Committee working with DOD or 
one of the other committees should be able to create a policy 
that lives beyond a presidency so that it is something that our 
allies and the countries we work with can count on that this 
policy will not change. Yes, the President can come in and they 
can tweak it as needed, but it has to survive an 
administration. And that is something that if we vote on it in 
the House and the Senate, it will be hard to change. And that 
all goes back to making sure we have the correct policy. I lost 
my train of thought.
    The one thing that you picked up, and you said this in the 
very beginning and this is so important. Your reports come out 
every year and I think they are spot on. It is this body that 
does not act. We are the ones that are in charge of the money. 
We are the ones that can direct these programs or not.
    And I thought what you said in the very beginning, 
successful reconstruction is incompatible with continuing 
insecurity, until we have a stable government, we can throw all 
the money you want, but until there is a stable government, and 
it does not need to be a democracy. I am against democracy 
building in a lot of these countries because they are not ready 
for it. That is something that has to come up from the top 
down. We cannot force feed a country that. It has to be a 
stable government that we can work with.
    And the women programs, those are all great and I agree 
with you. But when you look at that culture, if you do not 
understand that culture, their culture is you walk behind me 
eight or ten feet, they are not going to have them at the seat, 
at the dais, unfortunately as that is. We have been to 
countries where they have done that because of our policies and 
the women are there, but when you go to ask a question of them, 
the men answer. And I have interrupted the men and said, I do 
not want you to hear from you, I want to hear from the people 
that are here, the women here.
    We need to understand that culture and give them time to 
change and adapt, and I think we need to focus on stability. 
And when we have stability, then our infrastructure projects 
can start creating the economy that we need so that trade can 
come in a gradual change. The Taliban, we ran them out and the 
women went to school. But when the Taliban comes back, they are 
going to be out of school and we know that is going to happen. 
And so, I think we need to be a lot smarter in how we do this 
and this is a lesson learned that we should never repeat again.
    I want to get your sense, do you feel that the military 
industrial complex that President Eisenhower forewarned us 
about, are they playing a hand in this or impeding a success in 
this, or is it more of our policies just being, you know, where 
it changes every--the mental lobotomy that happens with talent 
that we send over there?
    Mr. Sopko. Yes, I can't really comment on that. I think the 
problems we have you have identified. The other problem is 
there is a tendency, and I talk about it in the statement, of 
we think that just throwing money at it will answer it.
    Mr. Yoho. Sure.
    Mr. Sopko. And more money is a problem. We spent too much 
money, too fast, in too small of a country, with too little 
oversight.
    Mr. Yoho. Right.
    Mr. Sopko. And that created the corruption problem. That 
distorted the economy and distorted the culture, so smaller 
sometimes is better. I don't know if that has anything to do 
with the military industrial complex, I think it more has to do 
with maybe it is a tendency of American culture. We have a view 
as we are going to get there with the firstest with the 
mostest, going back to, I don't know if it was General Sherman 
or something saying we are going to do that. And we have the 
same thing about development aid and we are going to get there 
with the firstest with the mostest and assume that is good.
    Mr. Yoho. And what we need to do is focus on what do you 
need, what do you want, what we can help you achieve.
    Mr. Sopko. And what you can use.
    And, sir, I would harken back to those seven questions 
which we posed within a year of me coming on board. I was 
trying to, what are the lessons we have learned and one of 
those questions is, do the Afghans know about the program?
    Mr. Yoho. Right.
    Mr. Sopko. Do they want the program? Will they use the 
program? If you answered that in the affirmative that program 
will probably succeed more than it will fail. But if you answer 
in the negative, then why are you doing the program?
    Mr. Yoho. Exactly. And your six conclusions and 
recommendations is what this body needs to do and we are the 
ones in charge of that and I thank you.
    Mr. Sopko. Welcome, sir.
    Mr. Engel. The gentleman's time is--Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Sopko, for your service. I want to 
understand a little bit about the Afghanistan Papers. What was 
the document that was being prepared? Was that going to be this 
report that you have provided to the committee or is it an 
internal document? Because part of what I am trying to figure 
out is, is there some failure also of our current model of the 
Inspector General in terms of getting this information in a way 
that will require action, because I do think sunlight on this 
is really important.
    So what, will you tell us a little bit about what the 
purpose, like were you preparing a report that was going to be 
shared publicly or shared with Congress?
    Mr. Sopko. That is a good question, and again I think it is 
one of the misconceptions. We were not preparing a report. We 
interviewed people in preparation for these seven reports as 
well we are interviewing for the next series of reports. You 
know, we--these were raw interview notes----
    Mr. Cicilline. OK.
    Mr. Sopko [continuing]. That we had done for those reports.
    Mr. Cicilline. For the reports that you had previously 
prepared, OK.
    Mr. Sopko. Oh, yes. Yes. And it is up----
    Mr. Cicilline. I want to get to some questions.
    Mr. Sopko. Sure, OK. Yes.
    Mr. Cicilline. I appreciate that. I just want to, because I 
do think getting this information is really valuable, but I 
want to focus my questions very much on corruption, because I 
think, certainly, the absence of a clear set of objectives has 
to come, you know, developing an objective for our mission in 
Afghanistan followed by a strategy and then metrics to measure 
it. I think that has been our challenge.
    But I am particularly disturbed about what I am learning in 
this most recent report with respect to the issue of 
corruption. The Department of Defense says corruption remains 
the top strategic threat to the legitimacy and success of the 
Afghan Government, and you quote that in your report. And your 
report in 2016 reported on corruption, I think all the reports 
have, and criticized the government's failure to recognize 
corruption, which was bad enough, but actually the American 
activities contributed significantly to the corruption.
    And so, would you speak a little bit about that and also 
about this notion that we prioritize security over 
anticorruption efforts and whether that was the right judgment 
and how we might measure metrics in both of those areas?
    Mr. Sopko. Well, that is, I think you have focused on what 
some military officers told us is really the major threat to 
reconstruction and to the war effort and that is corruption. It 
is not the Taliban, it is corruption. And if you talk to 
General Miller, who is head of all of our troops right now, he 
will answer that is still a problem.
    It not only saps the money we give to the Afghan 
Government, but it also is used as a recruiting tool by the 
Taliban because they can point to the corrupt officers. They 
can point to the corrupt warlords who are getting all of the 
government contracts, and they say, see, that is what the U.S. 
Government does. So I think you have honed in on a serious 
issue. It still is.
    Now I will say in defense of Congress, Congress has 
recognized that and they have done legislation on that. They 
have actually asked us to assess the corruption situation three 
times, so you are aware of it. And we are in currently 
assessing the condition there, it is still a serious problem.
    Mr. Cicilline. So one of the most mismanaged pots of money 
was the Commander's Emergency Response Program, or CERP, I 
guess it was called. This is a slush fund that was reminiscent 
of the war in Iraq. CERP was allowed military commanders in the 
field to bypass normal contracting rules and spend up to a 
million dollars on infrastructure projects far above the normal 
cost of such projects. What role did CERP money play in 
enabling corruption and was it ever deconflicted with other 
foreign assistance programs to ensure that funding streams were 
not working at cross purposes? That seems to be an especially 
serious cause or a contributing factor, the corruption that we 
saw on the ground.
    Mr. Sopko. You have highlighted a good point. CERP money 
was not deconflicted. Like a lot of the military programs, they 
were not deconflicted. I would not say CERP was the worst, I 
think there were a couple of other programs I could discuss 
that are worse. But we have not actually done an audit on those 
CERP funding to the granularity that you are asking, but it was 
deconflicted. Good intentions, but a lot of waste.
    Mr. Cicilline. And final question, a retired brigadier 
general said, and I am quoting, Congress gives us money to 
spend and expects us to spend all of it. The attitude became, 
we do not care what you do with the money so long as you spend 
it. End quote. This sentiment is reflected throughout the 
Lessons Learned report.
    What can Congress do to counter the view among military and 
civilian personnel in the field that you are just to spend 
money no matter what?
    Mr. Sopko. I think the best answer is for the appropriators 
to put language or at least do not hold the agencies vulnerable 
or attack them for not spending the money. I know a lot of 
agencies were attacked for not putting money on contract or not 
spending or losing it. So multiyear money may be an answer to 
that, but there is an incentive to spend the money.
    And we saw an absurd situation down in Camp Leatherneck 
where we built a building that we call it the 64K, a 64,000 
square-foot headquarters for the surge. They started 
construction as the surge was ending. The military officers, 
our Marine Corps general down there said, ``I don't want it, I 
don't need it, I won't use it.'' His superior above him, I 
think it was General Allen at the time, says, ``We don't want 
it, we don't need it, we won't use it.'' And it went up the 
chain.
    But there was a general back in Kuwait who said, Well, 
``Congress gave it to us, so spend it.'' So there is a 
beautiful building, unfortunately, you can't get to Camp 
Leatherneck, but when I got there it was the most best built 
building I saw in Afghanistan. I think it was $36 million. As 
far as I know, it is empty still.
    Mr. Engel. OK, thank you.
    Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman.
    Mr. Sopko, thank you for being here and thank you for what 
you do. It is pretty clear our experience in Afghanistan is a 
case of winning the war but not winning the peace or we would 
not still be there.
    But I have a couple questions with regards to some 
specifics and the first has to do with deployments. There is a 
significant downside to long deployments in terms of the effect 
on our men and women in the military and their families, but as 
you have pointed out there is also a significant downside to 
short deployments.
    Not from a military perspective, but from a reconstruction 
perspective, how do you reconcile that? How do we know when we 
have got it right?
    Mr. Sopko. That is a very good question. And I think what 
we can do is again look to where there have been successes. And 
what the Air Force has done is they have assigned the same 
people for 4 years. They do not spend the whole 4 years in 
Afghanistan, they basically work with the Afghan pilots, they 
bring them back so you are assigned to a similar task.
    Special Forces has the same thing. You are assigned, but 
then you have been there for a certain amount of time, you come 
back to a pool that then it is the same pool that works very 
closely with the same units so there is a connectivity. So 
those are two examples we cite. We are actually going to be 
doing a Lessons Learned report on what are the best practices 
for doing that in with AID or State or DoD. How are you able--
you do not want to send somebody over there for 18 years, that 
is impossible.
    Mr. Wright. Right.
    Mr. Sopko. My dad was drafted for World War II and he was 
there for the length of the war however long it lasted, but 
that is a little different. But there is a way to do that so 
you do not lose that connectivity, you do not lose that 
experience, you do not lose that connection with this Afghan 
unit, and you work together and that Afghan feels closer to 
you, the American advisor, than he does to the Taliban.
    Mr. Wright. And I want to pick up on something Mr. Yoho was 
talking about earlier and that is changes in administration. 
And I am not asking you to judge the administrations or their 
policies, but we have had three Presidents during this time, 
both parties. To what extent does a change in administration 
hamper our ability to, in terms of the reconstruction efforts?
    Mr. Sopko. I have not really seen that as a problem.
    Mr. Wright. OK.
    Mr. Sopko. But when the new administration, the Trump 
Administration, came in they did a policy review we 
participated at and they actually were very responsive to our 
bringing information to their attention. A lot of the career 
people do not change, so obviously we are dealing with them. 
The Ambassadors do not change. The AID people out there do not 
change, so I do not see that as a problem.
    Mr. Wright. OK.
    Mr. Sopko. We did not really see much of a difference 
between the Bush Administration to the Obama Administration in 
that. That we have not seen as a problem.
    Mr. Wright. OK. My last question has to do with Iraq and 
based on your experience, to what extent did the war in Iraq 
prevent us from completing what we needed to complete in 
Afghanistan?
    Mr. Sopko. Well, again I have not looked at the warfighting 
side. Remember, we have spent $132 billion on reconstruction. 
We have spent close to 700 billion on the warfighting in 
Afghanistan. So all I can tell you is when we did an analysis 
on the train, advise, assist and on the reconstruction, what 
everybody told us was when the focus turned on Iraq we lost 
interest in a lot of the key issues in Afghanistan. That is all 
I can tell you.
    And I--other than that----
    Mr. Wright. Would that include the establishment of civil 
governments?
    Mr. Sopko. Yes, to some extent.
    Mr. Wright. OK, great. Thank you and I yield back.
    Mr. Sopko. Yes.
    Mr. Castro [presiding]. Thank you, Representative Wright.
    Ami Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    So $132 billion on reconstruction, we have spent more on 
Afghanistan than we spent on the whole Marshall Plan 
rebuilding.
    Mr. Sopko. That is correct, sir.
    Mr. Bera. After World War II, so it is pretty amazing. And 
when I think about that I think some of it is when we 
approached Europe, we had similar cultures, similar, an 
understanding of Europe, similar forms of government, et 
cetera, so that probably contributed to some of that success.
    And it does seem evident from your answers and from what I 
have looked at, we do not have that same understanding of the 
values, culture, et cetera, in Afghanistan and that probably 
foundationally, is one of the things that has led us to be not 
so efficient. I think you stated or Mr. Yoho stated our goal is 
to define lasting peace. But the problem is how we define 
lasting peace may not be how the Afghans define lasting peace. 
How would you say they define lasting peace?
    Mr. Sopko. I think I would use, probably, the Webster's--
well, it is, will the gains that the Afghans have made continue 
in the future? So the women's rights, the rule of law, some of 
the gains they have made on corruption, I mean the question is, 
is will a peace treaty just end up into civil war again.
    Mr. Bera. Right.
    Mr. Sopko. So its sustainability of any of the gains, and 
we have made some gains over the 18 years, the Afghans have 
made some improvements, will those continue?
    Mr. Bera. So then it behooves us on the committee and, 
certainly, the subcommittee I chair has jurisdiction over 
Afghanistan and it is an area that we are going to look at, so 
we should define what those gains are. We should define those 
parameters. But we should also, you know, Mr. Perry is not 
here, but none of us is bashing President Trump here, or any 
particular administration. Each administration has got some 
things right, but they have also got a lot wrong.
    And we know the current administration wants to consider a 
withdrawal/drawdown in Afghanistan and probably will proceed in 
that direction. Congress should insert itself into this process 
and it does not have to be adversarial the message to the 
administration is work with us on this. And if we were to do 
that there probably is no peace process that does not involve 
the Taliban. They are not just going to disappear.
    So if we accept that as a reality, then we have to think 
about the gains within that context. And it would be my sense 
that some of our interests are certainly in the 
counterterrorism space we do not want to see a resurgence of 
al-Qaida and so am I thinking about this correctly in terms of, 
well, what would that remaining force be on the 
counterterrorism side.
    And then the last thing that I would think about and, you 
know, I would love for you to comment on is it is my sense that 
we have created a dependency in Afghanistan on U.S. dollars. 
And there is going to be a big hole that is left in the Afghan 
economy as we exit. How do we fill that hole? I mean, and now 
the complicating factor is regional dynamics as well.
    Obviously the Afghans have a relationship with the Indians. 
The Indians have an economy that could step in there. The 
Pakistanis do not like the Indians much of--so the whole 
regional dynamics are challenging as well, and how do we create 
that conversation as we are drawing down to create some 
regional, you know, am I, I guess, am I thinking about this 
correctly in how to engage?
    Mr. Sopko. You are absolutely. And, Congressman, again, I 
would ask you to go back to our High-Risk List that we issued 
and I think you--these are the risks to that stable, lasting 
peace and one of them definitely is finances. The Afghan 
economy is abysmal. It is reality. Seventy-percent of their 
budget for their government comes from the United States 
taxpayer and the European taxpayers and whatever, and that is 
not going to change once you sign peace. Now maybe the cost of 
the warfighting may change, but just because you sign peace 
with the Taliban does not mean you are going to have peace with 
ISIS or the other 30-some terrorist groups and the other 
warlords and gangs who are operating.
    So you are going to have a cost. We have to face the 
reality there and try to work with them. But that is one of the 
biggest concerns we have in here because you also have to 
reintegrate. Let's assume it is a successful peace. You have 
60,000 talib plus their families who have to be reintegrated. 
That costs money. Can the Afghans do that? No. We just had a 
major surrender of ISIS troops. I have seen no evidence that 
the Afghan Government has done anything to reintegrate those 
ISIS troops.
    And, actually, if you talk to General Miller, you talk to 
our----
    Mr. Castro. You will have to give the rest of it for the 
record. I have to move on to another Representative.
    Mr. Sopko. I am sorry. But I think those are the 
conditions.
    Mr. Bera. OK. We will continue this conversation.
    Mr. Sopko. I am terribly sorry. I did not hear you. I 
apologize.
    Mr. Bera. Right.
    Mr. Burchett. Thank you, Mr. Chairman, for that 
recognition. I am probably not as intellectual, but I will 
probably be more entertaining to you, so I appreciate the time.
    And I do notice how important you are. Usually we have this 
whole line of people up here and they get their 5 minutes and 
then they tweet about it and go home. You are by yourself and 
then you turn around to the group behind you and then they take 
note of whatever you are saying and make notes of it. So they 
are doing an excellent job behind you. I do not know if you 
knew that or not.
    I had a couple of questions, brother, and thank you for 
being here. Your father was a World War II veteran. My dad 
enlisted shortly after December 7th, so I appreciate--my momma 
flew an airplane during the war, so I appreciate you, brother, 
and I appreciate what you have said up here.
    I have actually been listening and I had a couple of good 
questions here. Have you seen any evidence that foreign State 
actors have or are currently undermining U.S. reconstruction 
efforts and can you expand specifically on the role Pakistan is 
playing?
    Mr. Sopko. I have not seen any evidence of that of foreign 
State actions on reconstruction. And as for Pakistan's role, 
obviously there is a lot of reporting about their involvement 
with if they are supporting various terrorist groups, but that 
is not within my jurisdiction so I am not the best person. I 
would just be reporting on what read in the newspaper too.
    Mr. Burchett. That is all right. And that is probably 
wrong, so I appreciate you saying that, brother.
    Should the U.S. continue to fund the counternarcotic 
programs even though we have thrown nine billion dollars at the 
problem and it seems with little success? And I say that coming 
to you--I was a State legislator for 16 years. I was a county 
mayor. And I remember when our Attorney General Randy Nichols 
told me, talked about the price of brown tar heroin and when it 
became too high the opioid epidemic would explode, and he was a 
prophet on that. It did.
    But I know that overseas the market is flowing in and out 
and I was just curious of your opinion on that.
    Mr. Sopko. Well, counternarcotics is the 800-pound gorilla 
in the room. It is the largest export from Afghanistan. It 
dwarfs the licit, the legal economy. It employs more people 
than are in the Afghan Army. So if you ignore it, you ignore it 
at your peril, particularly if we are talking about developing 
lasting peace.
    You have peace with the Taliban, but what about the drug 
warlords who are probably more powerful than the Taliban? They 
corrupt the institution. They are recognized by the Afghan 
people as that and if we tolerate them or if we allow the 
Afghan Government to tolerate them, you kick the can down the 
street just so far and that is a problem. So I do not know if I 
answered the question, sir.
    Mr. Burchett. Do you ever see--it seems like these folks, 
you know, we get a new regime in or whatever and the drug 
warlords just seem to transcend to the next one. Is that 
because of their, in its power or their cash-flow or is it a 
combination thereof?
    Mr. Sopko. I think it is a combination of it. And again, I 
do not want to downplay how difficult it is to fight drugs.
    Mr. Burchett. Yes.
    Mr. Sopko. We have a problem here in the United States.
    Mr. Burchett. A huge problem.
    Mr. Sopko. You could look at Mexico. You look at Colombia. 
You look at developed countries are having a problem with it. 
You put it into a country like Afghanistan, it dwarfs a lot of 
the other problems. The sad thing is, over the last 18 years 
drug usage in Afghanistan has skyrocketed. And I cannot 
remember and I can get back to you on the data on the United 
Nations, I think Afghanistan may have the highest addiction 
rate of any developing country now, but I can double check 
that. I may be wrong.
    Mr. Burchett. If you could get back to me that would be 
great and no big deal. But thank you so much for being here. I 
yield back the remainder of my time, Mr. Chairman. Thank you.
    Mr. Castro. Thank you, Representative. I would call on 
myself now. I am next in the lineup.
    I want to ask you, Mr. Sopko, and, first of all, thank you 
for your testimony. I want to ask you about our diplomatic 
corps and the State Department and the efficacy of our 
diplomatic efforts. While the United States has continued to 
spend billions of dollars annually, we apparently did not 
invest enough in our Foreign Service Officers and diplomacy to 
train and retrain experts.
    Given that we sought to achieve peace and development in 
Afghanistan, more military was not always the right answer. 
Whether rebuilding or negotiating with the Taliban, personnel 
within the State Department, of course, is of the utmost 
importance. So here are my questions for you. What can be done 
to empower and strengthen the diplomatic corps?
    Mr. Sopko. I think, first of all, is I think you hit a 
right point on empowering and strengthening. They are 
essential. The problem in Afghanistan is the Ambassador has 
been, it is sort of de facto, his role as the senior U.S. 
Government official has been downplayed by the fact that there 
is a military officer sitting across the street.
    Mr. Castro. What I was going to ask you about, about the 
interplay between----
    Mr. Sopko. He has more money.
    Mr. Castro. Right. And the interplay between our military 
folks that are there and the diplomatic folks that are there.
    Mr. Sopko. The problem is that the State Department, I 
think you have hit it on the head, is underfunded. USAID is 
underfunded in comparison to the military. We are fighting a 
war in Afghanistan, and I am not saying we should not fund 
General Miller and RS the way we are doing it. But I am just 
saying is you cannot ignore the diplomats; you cannot ignore 
USAID.
    You particularly saw this at the PRTs and at the regional 
groups when we set up, we were supposed to be AID and State and 
the military out there in the region. Well, military all showed 
up. They had the money. They had the manpower. They had the 
CERP funds. Where were the State and AID people? There were not 
enough of them to go around. And that is a problem.
    I am old school. Development should be done by development 
experts. Those are diplomats and AID officials. They should not 
be done by the U.S. military. And we highlight, when we give 
that task to the U.S. military it almost automatically fails.
    Mr. Castro. And that segues right into the next question 
that I wanted to ask you. Why does the military appear to be at 
the forefront of nation building in Afghanistan rather than the 
State Department or USAID, especially in light of the fact that 
this has been going on now for 18 years? So there has been 
plenty of opportunity to make course corrections, why do you 
think this is?
    Mr. Sopko. Because we have emphasized the warfighting and 
we have given short shrift to development and reconstruction. 
And the military has the weapons and they have the manpower and 
they have the money.
    Mr. Castro. And what does that say or what does the portend 
for when our presence, our military presence is no longer there 
at some point?
    Mr. Sopko. It is a big issue. It is one of those risks you 
face. Because, for example, our military assistance program has 
been run by the military. We have trained the Afghans to deal 
with the military. They have not been trained to deal through 
the normal embassy functions, so there are some serious 
problems here and it is an area I think Congress needs to look 
at.
    Mr. Castro. Thank you, Mr. Sopko.
    I am going to go now to Mr. Levin from Michigan.
    Mr. Levin. Thank you very much, Mr. Chairman.
    Mr. Sopko, thank you for your public service, I really 
appreciate it, and for coming here today. SIGAR interviewees 
indicated that politics was partly to blame for the sheer 
amount of money poured into Afghanistan even as money from 
prior years was left unspent, and officials made clear that 
Afghanistan did not have the capacity to put so much money to 
proper use.
    Apparently, policymakers claimed, ``The political signal by 
a budget reduction at a turning point in the war effort would 
adversely affect overall messaging and indirectly 
reconstruction efforts on the ground. The articulation of goals 
for the purpose of budgeting and programming was largely 
secondary to the political implications of budgeting.''
    In short, it seems like short-term political expediency was 
prioritized over long-term effective policy. No one wanted to 
support budget cuts and risk being blamed if things went badly. 
In your view, to what extent were budgeting decisions in 
Afghanistan made due to political expediency?
    Mr. Sopko. We have not looked at that. I think we have--
because it really goes beyond my mandate, but that issue has 
come up of just too much money sloshing around and the 
motivation was to spend it and that led to a lot of the 
problems, but we have never looked at it back on this side.
    Mr. Levin. Well, so here you are testifying before Congress 
and I really want to get your advice about what we can do here 
to insulate the budgeting and policymaking processes from 
political pressures when it comes to matters of war and peace 
or, just narrowly speaking, this war and peace in Afghanistan. 
Maybe to put it another way, how do we keep this from happening 
that we are spending much more, we are sending much more money 
than people on the ground think is appropriate?
    I mean it is a big problem when we have domestic priorities 
here and peaceful priorities here that we need to take care of 
our babies and our pre-K kids, we need to educate them, we need 
to be able to afford our infrastructure.
    Mr. Sopko. Congressman, the best answer I can have for that 
is having more hearings like this where you bring not just me, 
you bring in somebody from AID, State, and DoD to explain and 
justify their budget and explain not just the--talk about the 
inputs and outputs, but what is the outcome.
    And I go back to why some of you may have wondered why did 
I attach all of those letters from 2013 when I asked the 
SecDef, SecState, and AID administrator what are your ten best 
successes and what were your ten worst failures and why. I 
firmly believe that if they had honestly answered those 
questions, we would not be here today because what they would 
have done is it would force them to answer the question, why 
are we spending nine billion dollars on narcotics if it is a 
failure? They would answer the question, why are we spending 
$2.3 million bringing in rare Italian goats from Italy to 
develop the goat industry in Afghanistan over 6 months? They 
would have been forced to look at what--well, that is why we 
talk about racking and stacking.
    So, Congressman, take a look at those letters we sent and 
many of those letters and what we are asking are the same 
questions you should be asking. I cannot answer those, but if 
you want to stop the hemorrhage of money to a place like 
Afghanistan it has got to start by asking people not to talk 
about inputs, do not bring somebody in here from AID who only 
talks about how much money he has gotten, or outputs how many 
kids he says they are training in Afghanistan, but what is the 
outcome? Are any of those kids still in school?
    Mr. Levin. But in the brief time I have left, I mean you 
have had multiple Lessons Learned reports, right, where SIGAR 
identified that the approach and programs that the U.S. used to 
achieve Stated goals were not properly tailored to the Afghan 
context as you are talking about here with goats from Italy and 
so forth. What contributed to this gap? What lesson do you take 
from reading all these letters, the gap between what the U.S. 
is supporting and what the Afghans needed on the ground?
    Mr. Castro. Do you want to take 15 seconds to answer that?
    Mr. Sopko. I think I go back to the institutional hubris 
and mendacity that I talked about. We have incentivized lying 
to Congress, and by that, I mean the whole incentive is to show 
success and to ignore the failure. And when there is too much 
failure, classify it or do not report it.
    Congress has to weigh in and say, hold it, we want to know 
the truth as gory as it is. Reconstruction takes a long time. 
You cannot do it in 6 months. You cannot do it in 9 months. You 
probably cannot do it in one administration. So if you wanted 
to help the Afghans, it is the long haul. Eighteen----
    Mr. Castro. Thank you.
    Mr. Sopko. OK, that is--I am sorry.
    Mr. Levin. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Castro. Thank you. Yes.
    Representative Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome back----
    Mr. Sopko. Good to see you, sir.
    Mr. Connolly [continuing]. Mr. Sopko, and thank you for 
your work. I mean, frankly, that press table ought to be filled 
to overflowing. The story about Afghanistan and the United 
States' military and economic assistance to that country really 
deserves the kind of scrutiny you have been trying to provide 
and get attention to. It is shocking in some ways that the 
story you are telling has so little interest by the media, the 
public, Congress itself. We have provided at least $132 billion 
in development assistance that is of dubious value. Is that a 
fair----
    Mr. Sopko. Correct.
    Mr. Connolly [continuing]. Conclusion? Imagine, $132 
billion.
    And if I understand it, and I do not want to overstate it, 
almost all of the systems put in place are designed to avoid 
measuring progress, failure and success, and, for that matter, 
even accountability. So, for example, you earlier testified 
there are almost no metrics for how are we doing, did it work? 
If that did not work, let's try something else.
    You cannot--and when we have metrics, they classify them so 
the public and the Congress and others actually cannot access 
them; is that true?
    Mr. Sopko. That was my--basically, I was talking about the 
military where the bulk of the 132 billion has been spent, 
right.
    Mr. Connolly. Speaking of the military, in the 
stabilization report you talked about the fact that in a sense 
the military stifled, suppressed USAID by bulldozing the agency 
into a clear, hold, build strategy and demanded that AID, 
despite misgivings, implement a cash-for-work program despite 
AID's protests as well as misgivings; is that true?
    Mr. Sopko. That is correct.
    Mr. Connolly. How does such a thing happen?
    Mr. Sopko. Well.
    Mr. Connolly. How did AID lose its independence of 
judgment? After all, it is the agency in the Federal Government 
with the main expertise and development assistance, not the 
Pentagon.
    Mr. Sopko. Yes, I cannot fully answer that other than to 
say that who you give the money to, and I suppose who you give 
the guns to, really calls the shots, but it is who you give the 
money to. If there is only one AID person at the table and 
there is 23 guys and gals wearing green suits, I think if there 
is a vote you know who is going to win.
    Mr. Connolly. You talked earlier, passionately, about the 
problems with the longest war in American history and our 
engagement in reconstruction and you used two words that really 
struck me: hubris and mendacity. Almost sounds like a potential 
title for a novel. We had Advice and Consent, the modern 
version is going to be called Hubris and Mendacity.
    And I want to give you an opportunity to give us some 
examples of each that affected directly our efforts in 
Afghanistan. After all, the stakes, we invaded Afghanistan 
after 9/11. We worked with local militias to overthrow the 
Taliban and to try to expel and eliminate the presence of al-
Qaida. This was a momentous decision with very high stakes for 
America directly. And here we are well over a decade later and 
we do not seem to have done a very good job of meeting any kind 
of objective, including a stable government accepted by the 
people.
    So can you just give us some examples of hubris and 
especially mendacity?
    Mr. Sopko. Well, I think we have referred to, in my 
statement I talk about some of the statements made by AID about 
the great success on life expectancy. It was statistically 
impossible to double the life expectancy of the time given. I 
think it is a combination of hubris and mendacity that anybody 
can do that. I mean the next thing you know is we are going to 
be walking on water on an AID program.
    The education where we claimed millions of children were in 
school and AID knew that the data was bad but they still 
reported it as if those millions of children, is that hubris? 
Is that mendacity? Probably a combination of both. I actually 
think the people on the ground thought they were doing a great 
job. They just never looked at all the data and they were not 
going to explain that the data was faulty.
    You look at some of the successes we claimed about the 
power grid--I am running out of the time and the chairman is 
strong. So, I mean those are some of the examples. I am happy 
to give you a lot more of those examples.
    Mr. Castro. Thank you.
    Mr. Connolly. I would just say shades of Vietnam.
    Mr. Sopko. True.
    Mr. Castro. Representative Allred.
    Mr. Allred. Thank you, Mr. Chairman.
    I was in Afghanistan over the Thanksgiving holiday and 
while we were there we had a chance to meet with our military 
and State Department leaders. And I met a young Army captain 
who was a West Point grad and also a football player and he was 
tasked with training the next generation of Afghan military 
leaders. And he was tired when we met because he had been out 
the night before leading a raid, which we are doing every 
single night, degrading the Taliban's ability, al-Qaida, and 
ISIS elements as well. And I have often thought about that 
captain, especially as we heard the news of the two service 
members who were killed this weekend, and wondered if we are 
serving him as well as he is serving us, as well as many of our 
men and women in conflict are serving us.
    And I want to thank you for your work. I think this is one 
of the best parts of our democracy is that we can be critical 
of ourselves and that we can take a critical eye to our 
commitments and say what are we doing wrong and what can we do 
better. I am not here to point fingers. There are multiple 
administrations involved. We all know how long and how much 
money we put into this.
    But one of my questions for you is that over the years you 
have released a number of overarching recommendations for 
various parts of the government, I want to know how receptive 
you found the agencies involved to your recommendations. I 
think I read that 13 of them have been adopted; is that 
correct? And maybe tell us what you think is standing in the 
way of some of those recommendations being adopted.
    Mr. Sopko. Well, that is in regard to, I believe we had 
about 130 recommendations from the first seven Lessons Learned 
report. Overall, from our audits and inspections, about 86 
percent to 90 percent of our recommendations are adopted. The 
reason for the smaller number, I believe, is because many of 
our recommendations are conditional on events occurring such as 
peace or the next--many of our recommendations are if you do 
this again, you should do the following. So it is hard to say 
they have complied because it has not happened, so--but we are 
happy to report back on that.
    Mr. Allred. Yes.
    Mr. Sopko. The Lessons Learned Program have been very well 
received by the military, the State Department, and USAID. 
Particularly, the military under General Dunford when he was 
the Chairman of the Joint Chiefs, he was very receptive and we 
are using it--we have been asked to do it for training for them 
as well as the Foreign Service Institute.
    Mr. Allred. Oay. Well, I know that this has occurred 
before, but while I was there, we were told that a new 
generation of Afghan military leaders were emerging 
particularly in their Special Forces and they were leading most 
of the kinetic fighting and doing actually a decent job. And I 
was wondering if you could provide you and your agency's 
opinion on the generation of leadership that is coming through 
the Afghan military, whether or not they will be able to stand 
up when we stand down.
    And I know that some of that is a military consideration 
that is outside of your purview, but from the reviews you have 
done and over the years of your experience how you believe that 
is progressing.
    Mr. Sopko. Well, Congressman, it is a good point. It is in 
our purview because it is part of the train, advise, and 
assist. So as for the Special Forces, I think that is a success 
story. Our training and advising and assisting the Afghan 
Special Forces is a success. We highlight it, we continue to 
highlight it. I can give you more detail if I had the time and 
happy to brief you on it. Just as I said with the air program, 
we all are hoping for a new generation of officers, senior 
officers in the Afghan military. I know General Nicholson spoke 
that this is what we were hoping for. A lot of those officers 
were old Soviet-trained officers and they finally got rid of 
them. They retired and they pensioned them off.
    But it is too early to tell. We are talking about the law 
that pensioned all these older officers off was about less than 
a year old or maybe older, we do not know. But the problem is 
that below that corps level, maybe below that officer level you 
have a lot of corruption, a lot of incompetency and it is 
seriously hurting the Afghan military.
    The biggest problem is not casualties, it is desertions. It 
is people disappearing or it is people who never existed and we 
are paying their salaries. So we all have to respect the 
Afghans for doing what they are doing with the current 
situation. It is a difficult situation. Many of them are not 
being paid or fed. They have to buy their own food from their 
officers who steal it from them.
    Mr. Allred. Yes. Thank you. I yield back.
    Mr. Castro. Representative Spanberger.
    Ms. Spanberger. Good afternoon, Mr. Sopko. Thank you for 
being here. I, like many of my colleagues, recently visited our 
armed forces in Afghanistan and had the opportunity to meet 
with many of our men and women who are working on training 
special forces and Afghan pilots. So it is good as we are 
discussing the what is working and what is not to hear some of 
your discussion related to those two success stories.
    And you have talked a lot today about the fact that we are 
spending too much money and the waste and abuse of U.S. 
taxpayer dollars that we have seen in Afghanistan. And as we 
are moving toward the congressional appropriations process, I 
was wondering if you might dive into that question a bit more 
of where are we spending too much money? Where are there places 
where we are witnessing these abuses, and are there things that 
we as Members of Congress could prioritize or should consider 
as we move toward appropriations to ensure that we are not 
seeing the continued abuse in the way that we have witnessed 
over the past decade or more?
    Mr. Sopko. I cannot give you specific recommendations, but 
what I would go back to is look at the justification for some 
of these programs. What has been the outcome? Ask the agencies, 
what has been the outcome of funding, let's say, 
counternarcotics. What has been the outcome of funding rule of 
law, et cetera. So I think that is probably the only way I can 
help you on that. I cannot tell you for sure.
    I think--let's look--and this is what we did when we 
briefed General Dunford. Let's look at the successes and see if 
we cannot duplicate that in, let's say, the rest of the Afghan 
military. And we were very hopeful that we were going to do 
that and they proposed and I think they still have these 
brigades--excuse me--security forces assistance brigades where 
they were trying to do that. But I am not absolutely certain if 
the latest brigade has gone out.
    Yes, it has gone out. That may be an area you want to look 
in. I am happy to give you and any member--we can brief you on 
more particular specific issues. I am sorry I cannot answer in 
more detail.
    Ms. Spanberger. No, that is a really great starting point 
for those of us as we move into the appropriations season, so I 
appreciate that.
    And one next piece, as we are kind of zooming out from the 
challenges that we have seen in Afghanistan, one of the main 
findings of SIGAR's Lessons Learned studies is that the war 
that we were conducting in Iraq did hamper some of our efforts 
in Afghanistan.
    And so my question is, from the experiences that you have 
examining what has happened in Afghanistan and looking at the 
range of national security challenges that we see today, do you 
have concerns about escalating tensions in the region 
particularly with Iran and how that may impact our efforts in 
Afghanistan moving forward?
    Mr. Sopko. I think any security issue in that region causes 
concern and it is concern not only for the security of our 
people there, remember, Afghanistan has a border with Iran. 
There is a lot of connections with Iran, so I think we have to 
be cautious about that. It is even difficult to get people in 
and out of Afghanistan. It is a landlocked country now and I 
have to deal with that because I have people over there. I was 
over there at Christmastime and I do not know if I could have 
made that trip now that I did back then.
    But I cannot really speak because there is a broader issue 
of what is going on with us in Iran that I really do not know, 
but obviously that region is something we have to focus on. 
And, ultimately, the success of peace there is going to have to 
involve the region. If you read the book, The Great Game, which 
is a fascinating book by a British historian on it, what he 
says about Afghanistan is nobody wants to be there, but nobody 
wants anybody else there. And I think that is the same thing 
that is going on now.
    And so every one of those countries does not want anybody 
else there in that--but we are there now.
    Ms. Spanberger. But we are there. And one last question in 
the time remaining. You mentioned corruption and incompetency 
that exists at different levels in the military. Are you saying 
that in particular facets of where we are spending money and 
particular places where we are working with Afghanistan that 
there is a greater level of corruption and incompetency in one 
place or another, and would you point us in a particular place 
to have concerns or see room for improvement?
    Mr. Sopko. Fuel and payroll. Fuel is liquid gold. We still 
do not have a good way to protect it. One of the former CSTC-A 
commanders said that over 50 percent of the fuel we buy never 
reaches its ultimate base. I think that is something, and we 
are working very closely with them. The other one is payroll. 
Even after 18 years, we do not have the payroll system right 
and we do not even know how many Afghans we have been paying 
for.
    Mr. Castro. Thank you.
    Ms. Spanberger. Thank you. I yield back.
    Mr. Castro. Representative Houlahan.
    Ms. Houlahan. Thank you, Chairman.
    Thank you so much for coming here today. I actually really 
want to commend you for being so frank. This is only my first 
year here, a year and 2 weeks in, but you are, literally, the 
first person who I have seen in front of us on any of my 
committees that I felt was being honest and fully honest and 
not just waiting for the right question to not answer it. So 
thank you so much for that.
    Mr. Sopko. Thank you.
    Ms. Houlahan. Really, genuinely. And so given that you have 
effectively testified and talked about for the last couple 
hours the fact that we have basically failed all of our 
objectives in Afghanistan over the last 17 years or so, 18 
years, can you reflect on what the implications are for efforts 
that we have in other unstable countries and whether there is 
any, I guess, lessons to be learned or cautionary tales that we 
should be aware of?
    Mr. Sopko. First of all, I just want to qualify not 
everything has failed. There have been some successes. There 
are more women in the economy. There are more women going to 
school. There are more kids going to school.
    Ms. Houlahan. So we have an F-plus.
    Mr. Sopko. Yes. Well, D-minus, I think, is a good thing.
    Ms. Houlahan. D-minus.
    Mr. Sopko. I think it is hard to summarize 130 
recommendations in all these seven reports, but I think small 
may be better than large. Definitely deal with corruption, 
early on. Before you go in, also know where you are going in. I 
mean people were designing and working programs in Afghanistan 
like they were walking into Norway. This is not Norway. This is 
not Kansas, sometimes I felt I was out of a movie and this does 
not look like Kansas, Toto.
    Our staffers were, not our staffers, but some of the people 
and, unfortunately, a lot were with AID, it was unbelievable 
where they thought they were. So train our people before we 
send them in--they are honest people, but they just do not know 
where they are--and develop an understanding of that community. 
Know who the warlords are and who their brother and who their 
seventh cousin is because you may not want to give the contract 
to him, but you just gave it to his cousin. We have that 
capability. Our intelligence people know how to do that. But if 
they are not told to do that and we do not follow them and 
follow their advice, we are going to fail.
    I mean one of the other things is we have a tendency 
allowing counterterrorism to trump countercorruption, and when 
you do that you still have a security problem.
    Am I over or under?
    Ms. Houlahan. No, you are under.
    Mr. Sopko. Okay.
    Ms. Houlahan. But I do have one more question, which you 
spoke----
    Mr. Sopko. You are strict.
    Ms. Houlahan. You spoke a little bit about the importance 
of calendar versus condition-based timelines or vice versa. Can 
you give us a little bit more detail about why you thought that 
our strategy in Afghanistan was not successful because of 
improper selection of those timelines?
    Mr. Sopko. Well, it just basically goes back to decisions 
should be made on the reality on the facts on the ground, not 
an election cycle over here or a number pulled out of the air.
    Ms. Houlahan. How do we make a difference in that we are 
driven by calendars and we were driven by election cycles and 
is there some changing funding or sources or timelines that we 
can be helpful with?
    Mr. Sopko. I think it is having an educated electorate and 
an educated Congress to say, look, we are not going to put a 
timeline on it because we know it didn't work in Afghanistan, 
or it did not work in this other and that will not work. I 
think it is being honest to ourselves that development takes a 
long time.
    Hopefully that is one lesson that we have learned from 
Afghanistan is it takes a long time to try to build a 
government that is not corrupt or that can keep the bad guys 
out, the terrorists. And if we think we can do it in 1 year or 
9 months or 2 years, we are smoking something. And I cannot--
you are asking me how do we--this is common sense. So, I do not 
know if that answers the question. I am sorry. It could be just 
after 8 years of this.
    Ms. Houlahan. Thank you. And I only have about a half a 
minute left and I just do want to conclude with an appreciation 
particularly of your emphasis on the fact that a lot of 
information in the classified environment is not available to 
us here in the Congress and that we certainly canot provide 
oversight or fulfill the responsibilities that we have if we do 
not have access to that information.
    Mr. Sopko. Well, it may be available to you, but it is 
going to be in a closed environment and it is going to be very 
difficult for your staff to work with it. And, more 
importantly, it is going to be very difficult for the American 
people to know what is going on. They are the ones paying for 
this and they have a right to know.
    Ms. Houlahan. Agreed, and thank you, sir. I yield back.
    Mr. Castro. Thank you.
    Representative Malinowski.
    Mr. Malinowski. Thank you, Mr. Sopko. Great to see you. 
Thank you for your work and for your honesty. And, of course, 
we have been focused over the last minutes or hours of what has 
gone wrong in Afghanistan and there is a great deal to talk 
about there. In my view there are several fundamental mistakes, 
many of which you have touched upon.
    First of all, in the early years the decision to try to do 
this on the cheap, the diversion of the war in Iraq which then 
required our people in Afghanistan to rely on the power brokers 
who are already there who happen to be violent, brutal, corrupt 
warlords, and under those circumstances building the basic 
system of justice that was always the Afghan people's No. 1 
demand, proved impossible.
    And then as you just put it very clearly, even after that, 
even after we recommitted, we consistently prioritized 
counterterrorism over countercorruption. The result of that was 
the terrorism flourished because terrorism is in many ways a 
response in Afghanistan, or least support for groups like the 
Taliban is a response to anger about corruption.
    And then just the consistent promising of the American 
people that this could be done in a one-or 2-year timeframe and 
not being honest about what it would take, but that is where we 
have been. There have also been gains. Your job is to look at 
the problems, but Afghanistan today is a vastly different 
country as I am sure you would acknowledge from the utterly 
failed state that it was in 2001. People do not want to go 
back. Anyone who has been to Afghanistan or who knows Afghans 
knows that.
    And so let me ask you looking forward, what happens to this 
work that you are evaluating and urging us to improve if we 
precipitously withdraw, if our military were to perhaps in 
response to a tweet from somebody, just get up and leave?
    Mr. Sopko. We have not done an exact study on it, but just 
based upon all of our work and what people are telling me, and 
I was just there over Christmas and I have gone four times a 
year since I started this job, if the military, our military 
precipitously leaves, and I do not know how you define 
precipitously, but leaves very quickly, the Afghan military is 
going to have a hard time fighting on their own without our 
support. We give a lot of--we do not do the bulk of the 
fighting, they do it, but we do a lot of support, particularly 
their air. We do a lot of support of that and with the Special 
Forces, so you would have a very bloody stalemate continuing 
but probably declining.
    If we precipitously cut funding, my prediction, and it is 
just my prediction, we have not done a study on it, the Afghan 
Government would fall.
    Mr. Malinowski. And do you see that the perception that 
this might happen is having an impact on choices that Afghans 
are making? Have we seen, for example, capital flight? People 
deciding, you know what, I am just going to take my money. I am 
going to sell my property and my business, move my money to 
another country, send my kids to another country because I do 
not have confidence that this support is going to continue over 
the long term?
    Mr. Sopko. Again, we have not done a study on it, but from 
the Afghans we have talked to, and again I have people there 
who have been there for years and we have dealt with people are 
moving their families out of the country, I assume money is 
going with it. We have seen a bit of an uptick in theft of fuel 
and all of that and that is what happened the last time when we 
thought there was a drawdown, everybody is stealing what they 
can before we leave. So that we have seen, so that is a 
problem.
    Mr. Malinowski. Do you have any confidence that there can 
be a peace agreement with the power sharing with the Taliban 
that would enable us to continue honest, corruption-free 
development work in Afghanistan?
    Mr. Sopko. You know, it would be difficult, but it is 
something you are hoping the Taliban also cares about. But that 
is the difficulty of this negotiation of the Taliban are 
involved in a lot of the illegality. Beyond killing us, they 
are involved in the drug trade, so what happens after that? 
They are involved in extortions, kidnappings, stuff like that. 
It is a full-service criminal organization on top of being a 
terrorist, so I do not know how that is going to work.
    Mr. Malinowski. Yes. Well, I would conclude by saying this 
is obviously difficult and complicated, but I think in all 
these years there is one thing that we have not tried in 
Afghanistan. We have tried just about everything else, but the 
one thing we have not tried is to simply say we are committed, 
we are not leaving.
    And I wonder what impact it would have if we were to simply 
say to the Afghan people what we have said to the South Korean 
people, to the German people, to others that whatever the 
nature of our presence, we are not just going to pack up and 
leave. And I yield back. I think I am out of time, but.
    Mr. Sopko. I think I am out of time. Thank you.
    Mr. Castro. Thank you.
    Representative Titus.
    Ms. Titus. Thank you. As I have listened and read through 
some of the testimony, it seems to me a couple of things also 
stand out in addition to the excellent summary that was just 
given by Mr. Malinowski. One thing, just to use some of the 
jargon, instead of watering the green spots, we seem to keep 
rewarding bad behavior. Instead of helping those that are more 
secure, we keep investing in those are that are insecure, and 
why is that the case and how do we change that?
    And the second thing is, our whole pattern seems to be just 
buying results. We will give you some money if you will do 
this. There was, I think you noticed, some religious leaders 
who adopted some attitudes toward women if we gave them a nice 
financial package. Once we have established that as our 
pattern, how do we break it? And are there any other kinds of 
incentives that are noncash that we could be using so that the 
commitment to the kind of things we are trying to encourage is 
not just short term or superficial but is really more 
ingrained?
    Mr. Sopko. Answering your first question about this 
timeline, almost of--well, this, I forget how you phrased it 
on----
    Ms. Titus. Watering the green spots instead of----
    Mr. Sopko. Yes. A lot of that it comes from our 
stabilization report when we looked at it and this was driven 
by the timeline of troop withdrawal, that our troops there 
wanted to try to get as much of the territory free of Taliban 
before they knew they were leaving. And that was short-sighted 
because they did a clear a lot of places but there was nothing 
to come in behind it. And that is what was driving that train, 
that is having timelines issued from here not based on the 
reality on the ground.
    As for the second question, and I do not know what you are 
referring to on the specifics of that, but what it is, is 
conditionality and we are firm believers in conditionality and 
conditioning it in many ways. One is a carrot, the other is a 
stick, but we call it smart conditionality. So one thing is to 
say if you do this I will give you more money. The other thing 
is, well, if you do it I am going to take something away from 
you. So that is knowing who you are dealing with. So if you 
know the people on the other side want their kids to go to 
school at NYU, well, they have got to get a visa. They have got 
to get into the United States, and that is the conditionality 
you can give that is not exactly monetary. I will give you a 
classic example.
    We rebuilt the office of, I believe it was this Minister of 
Defense, maybe a Minister of Interior because he wanted an 
office as big as the Minister of Interior. So we went in and 
built him an office. He did not like it and totally ripped it 
out and rebuilt another one so it was comparable, so they feel 
happy, they look the same and all that. We spent hundreds of 
thousands, not a lot, but hundreds of thousands of dollars.
    I remember asking the CSTC-A commander after we had done 
that--we built an office, ripped everything out, spent U.S. 
taxpayers' dollars to make it look pretty again so he was 
happy--I said, what did you get for that? He had no idea what I 
was talking about. I said, you just did a favor for him, what 
did you get? Did you get him, maybe he is going to fight 
corruption in some area?
    That is smart conditionality. That is knowing who you are 
dealing with. And that is, I think, a way we can proceed and we 
have not really done that too much. As a matter of fact, we are 
right now asking for what type of conditions we have imposed on 
the funds to the Afghan military. And if I am not mistaken, 
they are refusing, I believe, to give us their current 
conditions. By ``they'' I mean our U.S. Government officials.
    Ms. Titus. I serve on the House Democracy Partnership and 
Afghanistan has been a partner since 2016, but we have a very 
difficult time engaging with them and I think it goes back to 
the point that you made that early on you said successful 
reconstruction is incompatible with continuing insecurity, and 
that is just one little example of how very true that is.
    Mr. Sopko. Correct.
    Ms. Titus. Well, thank you very much for your testimony. I 
yield back.
    Mr. Castro. Thank you, Representative.
    Mr. Sopko, that concludes our witnesses. Do you have any 
closing comments or statement you would like to make?
    Mr. Sopko. Other than to thank you very much and thank the 
chairman and all the members for giving us this time. This is 
very helpful, I think, for not only you, I hope, but also for 
the American people.
    Mr. Castro. Well, thank you to our Members of Congress and 
also to our witness, Mr. Sopko.
    Mr. Sopko, thank you for your candor and for your hard work 
on these issues. The hearing is concluded and the committee 
stands adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    



                                 <all>
</pre></body></html>
